CERTIFICATE OF WORD COUNT
No. TBD
Andrew Clarke,
Petitioner(s),
v.
Russell McMurry,
Respondent(s).
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.

■

2. That, as required by Supreme Court Rule 33.1(h), I certify that the Andrew Clarke
Petition for Writ of Certiorari contains 6099 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Chan Scalar
December 2, 2019

